          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report

Accelerated Tank Waste Retrieval
Activities at the Hanford Site




DOE/IG-0706                             October 2005
REPORT ON THE ACCELERATED TANK WASTE RETRIEVAL
ACTIVITIES AT THE HANFORD SITE



TABLE OF
CONTENTS


  Tank Waste Retrieval

  Details of Finding                             1

  Recommendations and Comments                   4


  Appendices

  Objective, Scope, and Methodology              6

  Prior Reports                                  7

  Management Comments                            8
Tank Waste Retrieval

Tank Waste             The Department will not meet Tri-Party Agreement (Agreement)
Retrieval Activities   milestones for the retrieval of waste from the single-shell tanks
                       located at the C-Tank Farm within schedule and cost. Based on
                       the current C-Tank Farm retrieval schedule and the amount of
                       waste retrieved to date, the Department will not accomplish its
                       milestone within schedule and cost.

                       According to the January 2005 C-Tank Farm Retrieval Schedule
                       for the 100 Series tanks, the Department will not complete retrieval
                       of waste from the tanks until December 2006, three months past
                       the Agreement milestone date of September 2006. Further, as of
                       June 2005, the schedule had slipped an additional three months and
                       retrieval is not scheduled to be completed until March 2007.
                       According to the C-Tank Farm retrieval schedule, retrieval must
                       operate 24 hours a day, seven days a week to meet the revised
                       completion schedule of March 2007. However, operating 24 hours
                       per day, seven days per week will require the hiring of additional
                       personnel. As of June 2005, additional personnel had not been
                       hired to operate the continuous schedule.

                       In addition to the retrieval schedule, actual retrieval efforts as of
                       June 2005 support the contention that it is unlikely that the
                       Department will be capable of meeting its revised completion
                       schedule of March 2007. Specifically, it took nine months to
                       retrieve 33,000 gallons of waste from the first of two tanks, which
                       is an average of 3,600 gallons per month. Retrieval of
                       approximately 3,000 gallons of waste from the second tank took
                       eight months, which is an average of 375 gallons per month.

                       In contrast, current completion estimates for the eleven remaining
                       100 Series tanks require retrieval to be completed in the next 18
                       months even though each of the remaining tanks contain
                       significantly more than 33,000 gallons of waste. To illustrate, the
                       Department estimates that it can complete retrieval operations for
                       the following tanks at significantly higher retrieval rates than the
                       previously experienced rate of 375 to 3,600 gallons per month,
                       over eight to nine months.

                          •   Tank C-101 contains 88,000 gallons of waste and the
                              Department estimates that it can complete retrieval
                              operations in approximately 56 days, which is an average
                              retrieval rate of 44,000 gallons per month.

                           • Tank C-107 contains 247,000 gallons of waste and the
                             Department estimates it can complete retrieval operations




Page 1                                                                  Details of Finding
Tank Waste Retrieval

                              in approximately 98 days, which is an average retrieval rate
                              of 61,750 gallons per month.

                           • Tank C-102 contains 316,000 gallons of waste and the
                             Department estimates it can complete retrieval operations
                             in approximately 115 days, which is an average retrieval
                             rate of 79,000 gallons per month.

                       Should retrieval operations increase to a 24 hours per day, seven
                       days per week schedule, more waste could be retrieved. However,
                       as previously stated, as of the time of our audit, employees were
                       not hired or trained to perform the work.

                       In addition, the schedule to complete waste retrieval from the 200
                       Series tanks has continued to slip. According to a February 2005
                       schedule, the final tank in the 200 Series tank sequence was to be
                       completed by August 2005. The latest schedule, dated June 2005,
                       lists a retrieval completion date of January 2006, a delay of five
                       months.

                       Finally, retrieval activities at the C-Tank Farm are exceeding the
                       established cost estimate. In fact, the cost estimates to complete
                       the retrieval of C-Tank Farm have increased from $90 million to
                       more than $215 million as of December 2004. According to the
                       Department, additional funds will be required to complete
                       retrievals of the waste and the closure program will need to reduce
                       work scope to make funds available for the overruns relating to the
                       C-Tank Farm.

Planning and           The Department had not based its retrieval plan schedule and
Execution              cost estimates on prior experience and current characterization
                       data or taken timely action to ensure that resources are available to
                       meet the established schedule. Specifically, the tank farm
                       contractor developed a Project Execution Plan (retrieval plan) for
                       the Department to guide the retrieval of waste. However, the
                       retrieval plan schedule and related cost estimate did not adequately
                       consider earlier retrieval experience at the site and ensure the tank
                       waste characterization data was accurate. Also, the necessary
                       technological and human resources were not available to ensure
                       that the existing schedule could be met.

                                 Retrieval Experience and Characterization Data

                       The Department's retrieval schedule and cost estimate was overly
                       optimistic and did not account for problems that were encountered
                       in previous retrieval operations. To illustrate, one of the



Page 2                                                                 Details of Finding
Tank Waste Retrieval

                       difficulties encountered during previous retrieval operations was
                       waste solidifying in the tank. This delayed retrieval efforts
                       because acid had to be introduced into the process to break up the
                       solids. However, in developing the retrieval schedules and cost
                       estimates, these difficulties were not given adequate consideration.
                       Recent retrieval operations have also been plagued with numerous
                       difficulties. Waste retrieval on one tank, for example, was stopped
                       within five minutes of initiation due to the waste gelling and
                       clogging retrieval equipment. Retrieval operations did not restart
                       until approximately five months later.

                       Further, the schedule did not include a consideration for known
                       vapor hazards. The Department has been aware of potential vapor
                       hazards since 1986. However, the extent of the vapor hazards and
                       the required use of supplied air were not incorporated into retrieval
                       estimates. In April 2004, after several reports of tank farm
                       workers being exposed to tank vapors, the Department required the
                       use of supplied air for all work being performed in the tank farms.
                       The required use of supplied air for tank farm labor increased costs
                       by approximately 30 percent and further delayed the schedule.

                       Challenges with waste characterization data contributed to the
                       schedule delays and cost overruns. The waste characterization data
                       for the tanks came from the Department's Best Basis Inventory.
                       The Best Basis Inventory contains the best available estimates for
                       tank waste volume, waste concentration, and inventory. This
                       information is used to determine what type of retrieval technology
                       will be used to retrieve waste from the tanks. The characterization
                       data in the Best Basis Inventory was completed in the mid-1990's
                       and was comprised of legacy information, and was not entirely
                       accurate. In fact, during the retrieval operations of at least one
                       tank, waste to be retrieved was more than double the amount
                       indicated in the Best Basis Inventory. Further, in some cases, the
                       physical properties and flow dynamics of the waste have not
                       reacted as predicted from analytical laboratory waste testing and
                       analysis.

                                      Technological and Human Resources

                       A lack of technological and human resources will also impact the
                       Department's ability to meet is schedule for retrieving tank waste.
                       Recent retrieval operations in one tank were halted because the
                       tank had been retrieved to the limits of the existing technology.
                       Alternate retrieval technologies are currently being evaluated. A
                       CH2M Hill Hanford Group, Inc. official expects that testing of this
                       new technology could take up to one year.



Page 3                                                                 Details of Finding
Tank Waste Retrieval

                       Also, the contractor has yet to acquire the necessary human
                       resources to meet the established retrieval schedule. Currently, the
                       contractor has not implemented its plan to operate waste retrieval
                       activities on a 24 hour schedule and estimates that it will take
                       approximately 18 months to train the additional personnel.
                       However, as of June 2005, the contractor had accounted for all of
                       its funding for Fiscal Year 2005 and did not anticipate hiring
                       additional personnel. In fact, the contractor laid off many of its
                       staff design engineers and support personnel in June 2005.

                       Despite these numerous obstacles encountered during retrieval
                       operations, the Department's retrieval schedules remain overly
                       optimistic. In fact, the Department has not adjusted the retrieval
                       schedules to reflect past or recent retrieval experience.

Long Range             As a result of tank retrieval schedule delays and cost overruns, the
Cleanup Plans          Department's ability to meet its Agreement of removing waste
                       from all single-shell tanks by 2018 is in jeopardy. In addition,
                       fines could be imposed for missing Agreement milestones.
                       Finally, missing Agreement milestones could erode public
                       confidence in the Department's ability to meet its cleanup
                       commitments.


RECOMMENDATIONS        We recommend that the Assistant Secretary for Environmental
                       Management (EM):

                           1. Revise the waste retrieval plan to include a cost and
                              schedule estimate that is based on recent retrieval
                              experience, and testing and evaluation of retrieval
                              technologies;

                           2. Based on the updated plan, prepare and submit a Baseline
                              Change Request; and,

                           3. Notify regulators that the existing milestones are not likely
                              to be achieved and establish new milestones based on
                              more accurate estimates.


MANAGEMENT             The Assistant Secretary for EM concurred with the recommendations
REACTION               in the audit report. In addition, management stated that it
                       recognized that significant challenges have been encountered with
                       the retrieval actions performed to date, and that these challenges
                       pose a risk to meeting the Hanford Federal Facility and Consent
                       Order commitments. To that end, the Office of River Protection



Page 4                                             Recommendations and Comments
Tank Waste Retrieval

                       (ORP) continually seeks to improve upon operational performance.
                       For example, retrieval was recently completed on tank C-202, the
                       second of the C-200 series. Retrieval on C-202 was completed in
                       43 calendar days, a sharp improvement over the approximate 270
                       calendar days required for C-203. The cumulative operational
                       experience amassed from completing retrievals currently ongoing
                       will provide a solid basis for planning subsequent retrievals
                       beyond 2006. A revised retrieval plan will be completed after
                       resolution of related issues on the Waste Treatment Plant and the
                       tank farm contract. Management also stated that it routinely briefs
                       regulators, on at least a monthly basis, on the status of C Farm
                       retrievals.

                       Management comments are included in their entirety in
                       Appendix 3.


AUDITOR                We consider management's comments responsive to the report's
COMMENTS               recommendations. While we recognize the operational
                       performance in completing the retrieval of 1,032 gallons of waste
                       from tank C-202 (688 gallons per month), this retrieval rate will
                       require significant improvement in order for the Department to
                       meet Tri-Party Agreement milestones for retrieving waste from the
                       remaining C Farm waste tanks by September 2006.




Page 5                                                                       Comments
Appendix 1


OBJECTIVE     The objective of this audit was to determine whether the
              Department will meet Tri-Party Agreement milestones to retrieve
              waste from the single shell tanks located at the C-Tank Farm
              within schedule and cost.


SCOPE         The audit was performed from September 2004 to August 2005, at
              the Hanford Site in Richland, Washington. The scope of the audit
              covered the Office of River Protection's tank waste retrieval
              activities.


METHODOLOGY   To accomplish the audit objective, we:
                  •   Obtained and reviewed planning documents for tank waste
                      retrieval activities;

                  •   Researched Federal and Departmental regulations;

                  •   Reviewed findings from prior audit reports regarding tank
                      waste retrieval activities;

                  •   Reviewed the CH2M HILL Hanford Group Inc. contract
                      with the Office of River Protection; and,

                  •   Interviewed key personnel in the Office of River
                      Protection and the Office of Environmental Management.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Specifically, we tested controls with respect to the Department's
              oversight. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. Also, we considered the
              establishment of performance measures in accordance with the
              Government Performance and Results Act of 1993 as they related
              to the audit objective. Finally, we did not rely on computer-
              processed data to accomplish our audit objective.
              Management waived the exit conference on September 14, 2005.




Page 6                                   Objective, Scope, and Methodology
Appendix 2


                                     PRIOR REPORTS


  •   Investigations of Allegations Involving Occupational Medical Services and Tank Farm
      Vapor Exposures at the Hanford Site (OIG Case I04RL003). The OIG investigation did
      not substantiate criminal misconduct relating to alleged cover-ups of vapor readings.
      OIG Special Agents initiated an investigation that reviewed the potential cover-up of
      ammonia vapor readings at the tank farms by employees of CH2M Hill Hanford Group,
      Inc. It was alleged that high exposure readings were either not documented or were
      misrepresented. However, the OIG believes action needs to be taken to ensure that
      Industrial Hygiene Technicians take vapor exposure readings in a timely manner
      following reported exposure incidents at the tank farms and document exposure readings
      in appropriate reports.


  •   CH2M Hill Hanford Group, Inc. and United States Department of Energy, Office of River
      Protection, Richland, Washington (HETA #2004-0145-2941, July 2004). The National
      Institute for Occupational Safety and Health (NIOSH) was asked to evaluate personal
      protection and health risks for employees exposed to vapors from tank waste. The
      NIOSH report concluded that, while there was adequate data and technology to
      characterize tank waste, concentrations in the head space vapors are subject to change.
      Also, exposure data for workers were limited in quantity and quality and were not kept in
      an easily accessible database. Further, exposure monitoring is often done hours after an
      accidental release is identified, limiting the utility of the sample to determine true
      potential exposure. In addition, the report found that CH2M Hill Hanford Group, Inc.'s
      written respiratory protection program failed to address ammonia, an agent of concern.
      Finally, a previous NIOSH report made recommendations to improve Department data
      collection and analysis to better understand potential health effects in Hanford and other
      Department site workers; however, these recommendations had not been implemented.




Page 7                                                                          Prior Reports
Appendix 3




Page 8       Management Comments
Appendix 3 (continued)




Page 9                   Management Comments
                                                                    IG Report No. DOE/IG-0706

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
